APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Memorandum in the United States
Court of Appeals for the Ninth Circuit
(June 6, 2019) . . . . . . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court, Western District of Washington
at Seattle
(November 15, 2018) . . . . . . . . . . . App. 5
Appendix C Order in the United States District
Court, Western District of Washington
at Seattle
(June 21, 2018) . . . . . . . . . . . . . . App. 13
Appendix D Order Denying Petition for Rehearing
and Petition for Rehearing En Banc in
the United States Court of Appeals for
the Ninth Circuit
(August 12, 2019) . . . . . . . . . . . . App. 20
Appendix E Deed of Partnership
(December 24, 1999) . . . . . . . . . . App. 22

App. 1

APPENDIX A
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-35573
D.C. No. 2:17-cv-01146-RAJ
[Filed June 6, 2019]
_____________________________________________
BALKRISHNA SETTY, individually and as
)
general partner in Shrinivas Sugandhalaya
)
Partnership with Nagraj Setty;
)
SHRINIVAS SUGANDHALAYA (BNG) LLP,
)
Plaintiffs-Appellees,
)
)
v.
)
)
SHRINIVAS SUGANDHALAYA LLP,
)
Defendant-Appellant.
)
____________________________________________ )
MEMORANDUM*
Appeal from the United States District Court
for the Western District of Washington
Richard A. Jones, District Judge, Presiding

*

This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

App. 2
Submitted June 3, 2019**
Seattle, Washington
Before: D.W. NELSON, RAWLINSON, and BEA,
Circuit Judges.
Shrinivas Sugandhalaya LLP (“SS LLP”), an
incense manufacturing company based in Mumbai,
appeals the district court’s order denying its motion to
compel arbitration and to grant a stay in a trademark
action brought by Balkrishna Setty (“Balkrishna”) and
his company Shrinivas Sugandhalaya (BNG) LLP
(“BNG LLP”), located in Bangalore.
We review de novo the district court’s denial of a
motion to compel arbitration. Poublon v. C.H. Robinson
Co., 846 F.3d 1251, 1259 (9th Cir. 2017). We review a
district court’s order denying a motion to stay pending
arbitration for abuse of discretion. Alascom, Inc. v. ITT
North Elect. Co., 727 F.2d 1419, 1422 (9th Cir. 1984).
SS LLP, citing the arbitration clause in the
Partnership Deed, seeks to compel arbitration under
the Convention on the Recognition and Enforcement of
Foreign Arbitral Awards (“New York Convention”), 9
U.S.C. § 201 et seq. and the Federal Arbitration Act
(“FAA”), 9 U.S.C. § 2. Our recent decision in Yang v.
Majestic Blue Fisheries, LLC, 876 F.3d 996 (9th Cir.
2017) forecloses both arguments.
It is undisputed that SS LLP is not a signatory to
the Partnership Deed. In fact, SS LLP was not even in

**

The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App. 3
existence at the time the Partnership Deed was signed.
As a non-signatory, SS LLP may not compel arbitration
under the New York Convention. See Yang, 876 F.3d at
1001 (interpreting the Convention’s phrase “signed by
the parties” to include only signatories or parties to the
agreement under which the litigant moves to compel
and holding that “the [New York Convention] does not
allow non-signatories or non-parties to compel
arbitration.”).
To the extent that SS LLP seeks to compel
arbitration under the FAA, this argument also fails.
Under the FAA, a non-signatory may invoke
arbitration if state law permits. See Arthur Andersen
LLP v. Carlisle, 556 U.S. 624, 630–32 (2009). However,
where the FAA allows what the Convention prohibits,
the Convention controls. See Yang, 876 F.3d at 1002
(“To the extent the FAA provides for arbitration of
disputes with non-signatories or non-parties, it
conflicts with the Convention Treaty and therefore does
not apply.”); 9 U.S.C. § 208 (“Chapter 1 [of the FAA]
applies to actions and proceedings brought under this
chapter to the extent that chapter is not in conflict with
this chapter or the [New York] Convention as ratified
by the United States”).
SS LLP makes a couple of other arguments on
appeal. First, SS LLP argues that BNG LLP and SS
LLP are parties to the Deed of Partnership because
they are both “assigns” of the respective brothers. This
argument was not raised before the district court, does
not have much support in the record, and requires factfinding that our court is not positioned to conduct.
Second, SS LLP argues that, because the arbitration

App. 4
process “has begun” in India (through SS LLP serving
a demand on Balkrishna), a stay is appropriate. This
argument was dismissed by the district court in a
separate order that is not before our court.
Because the New York Convention does not permit
SS LLP to compel arbitration, the district court did not
abuse its discretion in denying a stay of proceedings
pending arbitration.
AFFIRMED.

App. 5

APPENDIX B
HONORABLE RICHARD A. JONES
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
Case No. 2:17-cv-01146-RAJ
[Filed November 15, 2018]
_______________________________________
BALKRISHNA SETTY, individually
)
and as general partner of Shrinivas
)
Sugandhalaya Partnership with Nagraj )
Setty, and SHRIVINAS
)
SUGANDHALAYA (BNG) LLP
)
Plaintiffs,
)
)
v.
)
)
SHRINIVAS SUGANDHALAYA LLP
)
and R. EXPO (USA), INC.,
)
Defendants.
)
______________________________________ )
ORDER
This matter comes before the Court on Defendant
Shrinivas Sugandhalaya LLP’s (“SS Mumbai”) motions
to stay this matter pending appeal and arbitration in
India. Dkt. ## 79, 85. Plaintiffs Balkrishna Setty and
Shrinivas Sugandhalaya (BNG) LLP (“SS Bangalore”),
oppose the motions. Dkt. ## 83, 86. Defendant R. Expo

App. 6
(USA), Inc. (“R. Expo”) does not oppose a stay of this
matter. For the reasons that follow, the Court
GRANTS Defendant’s Motion to Stay Pending Appeal
(Dkt. # 79), and DENIES Defendant’s Motion to Stay
Pending Arbitration (Dkt. # 85).
I.

BACKGROUND

Plaintiffs filed this action on December 15, 2016,
alleging that Defendants engaged in in unfair
competition, false advertising, false designation of
origin, and fraudulent trademark registration. Dkt. # 1.
Defendant SS Mumbai then filed a motion to dismiss or
stay this action, seeking to enforce the arbitration
clause of a Partnership Deed signed by Plaintiff
Balkrishna Setty and his brother, Nagraj Setty, the
founder of Defendant SS Mumbai. Dkt. # 59. On
June 21, 2018, the Court denied Defendant’s Motion,
because Defendant SS Mumbai was not a signatory or
a third-party beneficiary to the Partnership Deed and
because equitable estoppel did not apply. Dkt. # 72.
The background of this case is set out in further detail
in that Order and is incorporated here. Id.
Defendant SS Mumbai then filed two additional
motions to stay. Dkt. # 79, 85. The first motion
requests that the Court stay this action pending the
outcome of Defendant’s appeal of the Court’s previous
Order. Dkt. # 79. After the first motion was filed, the
founder of Defendant SS Mumbai, Nagraj Setty, sent a
letter to Plaintiff Balkrishna Setty invoking the
arbitration clause in the Partnership Deed and
commenced arbitration proceedings in Mumbai, India.
Dkt. # 85 Ex. 2. Defendant then filed the second motion
to stay. Dkt. # 85. The second motion requests that the

App. 7
Court stay this action until the arbitration proceedings
in India have concluded. Id.
II.

LEGAL STANDARD

A district court has discretionary power to stay
proceedings in its own court. Landis v. N.A. Co., 299
U.S. 248, 254-255 (1936); see also Lockyer v. Mirant
Corp., 398 F.3d 1098, 1109 (9th Cir. 2005). “A trial
court may, with propriety, find it is efficient for its own
docket and the fairest course for the parties to enter a
stay of an action before it, pending resolution of
independent proceedings which bear upon the case.”
Leyva v. Certified Grocers of Cal., Ltd., 593 F.2d 857,
863 (9th Cir. 1979). “A stay should not be granted
unless it appears likely the other proceedings will be
concluded within a reasonable time in relation to the
urgency of the claims presented to the court.” Id. at
864. When considering a motion to stay, the district
court weighs three factors: (1) the possible damage
which may result from the granting of a stay, (2) the
hardship or inequity which a party may suffer in being
required to go forward, and (3) the orderly course of
justice measured in terms of the simplifying or
complicating of issues, proof, and questions of law
which could be expected to result from a stay. CMAX,
Inc. v. Hall, 300 F.2d 265, 268 (9th Cir. 1962).
III.

DISCUSSION

The Court finds that there is good cause to grant a
stay of these proceedings. At issue is whether this
matter should be stayed pending the outcome of the
Defendant’s appeal of the Court’s June 21, 2018 Order,

App. 8
or whether it should be stayed pending the outcome of
the arbitration proceedings in India.
A.

Stay Pending Appeal

Defendant argues that they will be irreparably
harmed absent a stay because they will lose the benefit
of the arbitration clause in the Partnership Deed if
they are forced to continue litigating while their appeal
is still pending. This argument is directly contradicted
by Defendant and Mr. Nagraj Setty’s actions. Mr.
Nagraj Setty is currently attempting to invoke the
arbitration clause of the Partnership Deed in India and
Defendant offers no argument that this appeal has
affected Mr. Setty’s ability to do so. However, should
the Ninth Circuit decide that this case should be in
arbitration, continuing litigation in this forum will
cause the parties to incur litigation-related costs that
may later be found to be unnecessary. At this time,
Defendant represents that the parties have not yet
begun discovery, and that Mr. Nagraj Setty, as founder
of Defendant SS Mumbai, would be forced to travel to
the United States to participate in these proceedings if
a stay is not granted. As such, continuing this litigation
would cause Defendant to incur significant costs and
hardship.
Plaintiffs argue that a prolonged stay of this matter
would substantially injure them due to the difficulty of
preserving evidence and because Defendant SS
Mumbai’s continued alleged infringement of Plaintiffs’
intellectual property rights would cause irreparable
harm to Plaintiffs’ brand, goodwill, and business
reputation. The Court agrees that these are valid
concerns and possible harms that could result from a

App. 9
stay, however, should it be decided that Plaintiff’s
claims are subject to arbitration, the hardship or
inequity of forcing the parties to move forward
outweigh these possible harms. Plaintiffs also fail to
demonstrate what evidence is in danger of being lost or
how it will be lost beyond an implication that the
passage of time would fade memories. Dkt. # 89 at 9.
Therefore, Defendant’s Motion to Stay Pending Appeal
is GRANTED. Dkt. # 79.
B.

Stay Pending Arbitration in India

The Court must now consider whether this matter
should be stayed until the resolution of arbitration
proceedings in India. Defendant argues that the
arbitration in India will decide the same intellectual
property issues that are the basis of this litigation. Dkt.
# 85 at 2. Defendant bases this argument on Mr.
Nagraj Setty’s arbitration demand letter, which was
written and sent by his local counsel in India. However,
it is unclear whether all of Mr. Nagraj Setty’s claims
are subject to arbitration or whether they will actually
come before the arbitrator. As noted in the Court’s
previous Order, the Partnership Deed did not assign
intellectual property rights, and “the conduct alleged in
the Complaint is not intertwined with the Partnership
Deed such that the claims arise” out of that Deed.
Defendant does not provide support for their contention
that the arbitration demand letter conclusively
determines what claims can be arbitrated under the
Partnership Deed, only that the arbitration demand
letter formally begins the arbitration process under
Indian law. Plaintiffs also argue that they have not
agreed to arbitrate these claims in India, therefore it is

App. 10
unclear whether those arbitration proceedings will
move forward in the manner that Defendant contends.
Therefore, Plaintiffs’ argument that this matter should
be stayed because the arbitrator and the Court would
be ruling on the same issues simultaneously, is also
unpersuasive.
Defendant argues that they would incur significant
costs if this action is allowed to proceed while the
arbitration in India is ongoing. The Court agrees that
unnecessary litigation costs would be a significant
hardship, especially if it is decided that these claims
must go to arbitration on appeal. However, Mr. Nagraj
Setty and Defendant created this new additional
financial burden by initiating arbitration proceedings
without waiting for the outcome of Defendant’s appeal.
These additional costs are self-inflicted and appear to
be an attempt to force these proceedings into
arbitration, despite the Court’s previous Order.
Defendant also argues that Section 3 of the Federal
Arbitration Act (“FAA”) requires that the Court stay
this action now that arbitration has begun in India.
The FAA states that, “[i]f any suit or proceeding be
brought in any of the courts of the United States upon
any issue referable to arbitration under an agreement
in writing for such arbitration, the court in which such
suit is pending, upon being satisfied that the issue
involved in such suit or proceeding is referable to
arbitration under such an agreement, shall on
application of one of the parties stay the trial of the
action.” 9 U.S.C. § 3. Contrary to Defendant’s assertion,
the allegation that separate arbitration proceedings
will cover an issue involved in this litigation is not

App. 11
sufficient to require the Court to stay this matter.
Section 3 requires that that a district court stay
proceedings pending arbitration if it is satisfied that
the parties have agreed in writing to arbitrate an issue
underlying the district court proceeding. The Court has
not found that this is necessarily the case here.
As it is unclear at this time how or even if, the
arbitration proceedings in India will affect Plaintiffs’
claims, granting a stay of this matter pending
resolution of those proceedings would be overly
prejudicial to Plaintiffs. While Defendant represents
that Plaintiffs will be able to pursue their claims in
those arbitration proceedings, taking into account all of
the above, the Court will not grant a stay merely on the
basis of that representation. Further, as the Court is
already granting Defendant’s motion to stay this
matter pending their appeal and Defendant is
currently attempting to litigate this matter in their
chosen forum, a stay of this matter pending the
outcome of the arbitration proceedings in India would
cause prejudice and harm to Plaintiffs that far
outweighs the possible prejudice and harm to
Defendant. Defendant’s Motion to Stay pending
arbitration proceedings in India is DENIED. Dkt. # 85.
IV.

CONCLUSION

For the foregoing reasons, the Court GRANTS
Defendant’s Motion to Stay Pending Appeal (Dkt. # 79),
and DENIES Defendant’s Motion to Stay Pending
Arbitration (Dkt. # 85).

App. 12
Dated this 15th day of November, 2018.
/s/ Richard A. Jones
The Honorable Richard A. Jones
United States District Judge

App. 13

APPENDIX C
HONORABLE RICHARD A. JONES
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
Case No. 2:17-cv-01146-RAJ
[Filed June 21, 2018]
_______________________________________
BALKRISHNA SETTY, individually
)
and as general partner of Shrinivas
)
Sugandhalaya Partnership with Nagraj )
Setty, and SHRIVINAS
)
SUGANDHALAYA (BNG) LLP
)
Plaintiffs,
)
)
v.
)
)
SHRINIVAS SUGANDHALAYA LLP
)
and R. EXPO (USA), INC.,
)
Defendants.
)
______________________________________ )
ORDER
This matter comes before the Court on Defendant
Shrinivas Sugandhalaya’s (“SS Mumbai”) motion to
dismiss or stay in favor of arbitration. Dkt. # 59.
Plaintiffs oppose the motion. Dkt. # 65. Defendant R.
Expo (USA), Inc. (“R. Expo”) does not oppose
arbitration but requests severance if the Court decides

App. 14
to grant SS LLP’s motion. Dkt. # 64. For the reasons
that follow, the Court DENIES Defendant’s motion.
I.

BACKGROUND

Mr. K.N. Satyam Setty formed an incense
manufacturing and distribution partnership in India.
Dkt. # 1 (Complaint) at ¶ 16. Mr. Setty’s sons,
Balkrishna and Nagraj Setty, continued the
partnership after their father passed. Id. The sons
signed a Partnership Deed agreeing to manufacture the
incense and split the profits equally. Dkt. # 60-1. The
Partnership Deed included an arbitration clause,
stating:
All disputes of any type whatsoever in respect of
the partnership arising between the partners
either during the continuance of this
partnership or after the determination thereof
shall be decided by arbitration as per the
provision of the Indian Arbitration Act, 1940 or
any statutory modification thereof for the time
being in force.
Id.
In 2014, the sons started their own companies,
irrespective of the Partnership, and “control of the
manufacturing of incense products was effectively
transferred from the Partnership to its partners,”
Balkrishna and Nagraj Setty. Dkt. # 1 (Complaint) at
¶ 51. Mr. Balkrishna Setty’s company is Shrinivas
Sugandhalaya (BNG) LLP (“SS Bangalore”), located in
Bangalore. Id. at ¶¶ 52, 53. Mr. Nagraj Setty’s
company is Shrinivas Sugandhalaya LLP (“SS
Mumbai”), located in Mumbai. Id. at ¶¶ 54, 55. Mr.

App. 15
Balkrishna Setty claims that he and his brother are
now competitors rather than partners. Id. at ¶ 58.
Plaintiffs claim that SS Mumbai misrepresented
where it manufactured its incense—by putting
Bangalore on the packaging rather than Mumbai—in
an effort to confuse customers about the quality of the
product. Id. at ¶¶ 85, 86. Plaintiffs also accuse SS
Mumbai of interfering in Plaintiffs’ business by sending
cease and desist letters that claim SS Bangalore is
infringing on Defendants’ trade dress rights. Id. at
¶ 108. Plaintiffs further claim that SS Mumbai
fraudulently obtained trademark registrations for the
mark and design of its incense. Id. at ¶ 122.
SS Mumbai is now before the Court seeking
dismissal or stay in proceedings because it claims that
Plaintiffs must bring their claims in arbitration—
pursuant to the Partnership Deed—and not in this
forum. Dkt. # 59.
II.

LEGAL STANDARD

Because the Federal Arbitration Act (“FAA”)
requires courts to “direct the parties to proceed to
arbitration on issues as to which an arbitration
agreement has been signed, the FAA limits court
involvement to determining (1) whether a valid
agreement to arbitrate exists and, if it does,
(2) whether the agreement encompasses the dispute at
issue.” Cox v. Ocean View Hotel Corp., 533 F.3d 1114,
1119 (9th Cir. 2008) (internal quotations omitted). The
party opposing arbitration bears the burden of showing
that the agreement is not enforceable. See Green Tree
Fin. Corp. v. Randolph, 531 U.S. 79, 91-92 (2000);

App. 16
Rodriguez de Quijas v. Shearson/American Exp., Inc.,
490 U.S. 477, 483 (1989).
Regarding the first prong, “arbitration is a matter
of contract and a party cannot be required to submit to
arbitration any dispute which he has not agreed so to
submit.” Kramer v. Toyota Motor Corp., 705 F.3d 1122,
1126 (9th Cir. 2013) (citing United Steelworkers v.
Warrior & Gulf Navigation Co., 363 U.S. 574, 582
(1960)). Generally, the contractual right to compel
arbitration “may not be invoked by one who is not a
party to the agreement and does not otherwise possess
the right to compel arbitration.” Id.
Regarding the second prong, “[t]he scope of an
arbitration agreement is governed by federal
substantive law.” Simula, Inc. v. Autoliv, Inc., 175 F.3d
716, 719 (9th Cir. 1999). If a contract contains an
arbitration clause, there is a presumption that the
dispute is arbitrable. AT & T Techs., Inc. v. Comm’ns
Workers of America, 475 U.S. 643, 650 (1986). In that
case, “any doubts concerning the scope of arbitrable
issues should be resolved in favor of arbitration.”
Simula, 175 F.3d at 719.
III.

DISCUSSION

A nonsignatory may compel a signatory to arbitrate
under certain circumstances, such as when the
nonsignatory was a third-party beneficiary to the
arbitration agreement or when an alternative estoppel
theory dictates. Lucas v. Hertz Corp., 875 F.Supp.2d
991, 1000-1001 (N.D. Cal. 2012).
Only one party in this lawsuit was a signatory to
the Partnership Deed—Mr. Balkrishna Setty. SS

App. 17
Mumbai was not a signatory to the Partnership Deed,
nor was it a third-party beneficiary as it did not exist
until several years after the Setty brothers signed the
Partnership Deed. Nonetheless, SS Mumbai argues
that Plaintiffs’ claims are dependent on rights allegedly
derived from the Partnership Deed. Dkt. ## 59 at 11,
67 at 3. As such, SS Mumbai argues that equitable
estoppel results in Plaintiffs’ need to arbitrate this
dispute.
Under theories of equitable estoppel, a nonsignatory
may compel arbitration: “(1) when the signatory’s
claims against a nonsignatory arise out of the
underlying contract; and (2) when the nonsignatory’s
conduct is intertwined with a signatory’s conduct.”
Lucas, 875 F.Supp.2d at 1002; see also Rajagopalan v.
NoteWorld, LLC, 718 F.3d 844, 847 (9th Cir. 2013)
(“Where other circuits have granted motions to compel
arbitration on behalf of non-signatory defendants
against signatory plaintiffs, it was ‘essential in all of
these cases that the subject matter of the dispute was
intertwined with the contract providing for
arbitration.’”) (citations omitted); Kramer, 705 F.3d at
1128 (“‘Equitable estoppel precludes a party from
claiming the benefits of a contract while
simultaneously attempting to avoid the burdens that
contract imposes.’”) (quoting Comer v. Micor, Inc., 436
F.3d 1098, 1101 (9th Cir. 2006)).
Neither theory of equitable estoppel applies here.
The Partnership Deed did not assign intellectual
property rights, and therefore there is nothing for the
Court to interpret in the Partnership Deed with regard
to those claims. Dkt. # 60-1. Moreover, the conduct

App. 18
alleged in the Complaint is not intertwined with the
Partnership Deed such that the claims arise out of the
underlying contract. Instead, the conduct relates to
how the new entities—SS Bangalore and SS
Mumbai—manufacture and advertise their products,
compete with each other, and whether SS Mumbai
properly registered its trademarks. Dkt. # 1
(Complaint). This conduct is divorced from the
underlying Partnership Deed, which set out to define
the manufacturing relationship and financial divisions
between the two brothers while they remained
partners. Dkt. # 60-1.
To utilize the second theory of equitable estoppel,
SS Mumbai would need to show that its conduct is
interdependent with the conduct of a signatory.
Hawkins v. KPMG LLP, 423 F.Supp.2d 1038, 1051
(N.D. Cal. 2006). SS Mumbai’s conduct is not
intertwined with that of a signatory to the Partnership
Deed. Indeed, the Complaint makes allegations against
two nonsignatories. Dkt. # 1 (Complaint). The purpose
of compelling arbitration when a nonsignatory
defendant’s conduct is intertwined with a signatory
defendant’s conduct is to ensure that the signatory has
the benefit of the arbitration agreement. Id. at 1050.
Neither SS Mumbai nor R. Expo are signatories to the
Partnership Deed; the concern that a signatory may be
denied the benefit of an arbitration agreement is not
present here.
IV.

CONCLUSION

For the foregoing reasons, the Court DENIES
Defendant’s motion. Dkt. # 59.

App. 19
Dated this 21st day of June, 2018.
/s/ Richard A. Jones
The Honorable Richard A. Jones
United States District Judge

App. 20

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-35573
D.C. No. 2:17-cv-01146-RAJ
Western District of Washington, Seattle
[Filed August 12, 2019]
_____________________________________________
BALKRISHNA SETTY, individually and as
)
general partner in Shrinivas Sugandhalaya
)
Partnership with Nagraj Setty;
)
SHRINIVAS SUGANDHALAYA (BNG) LLP,
)
Plaintiffs-Appellees,
)
)
v.
)
)
SHRINIVAS SUGANDHALAYA LLP,
)
Defendant-Appellant.
)
____________________________________________ )
ORDER
Before: D.W. NELSON, RAWLINSON, and BEA,
Circuit Judges.
The members of the panel that decided this case
voted unanimously to deny the petition for rehearing.
Judges Rawlinson and Bea voted to deny the petition
for rehearing en banc. Judge Nelson recommended
denial of the petition for rehearing en banc.

App. 21
The full court has been advised of the petition for
rehearing en banc and no active judge has requested a
vote on whether to rehear the matter en banc. (Fed.R.
App. P. 35.)
The petition for rehearing and the petition for
rehearing en banc are denied.

App. 22

APPENDIX E

DEED OF PARTNERSHIP
[Dated December 24, 1999]
THIS DEED OF PARTNERSHIP made and entered
into at Mumbai on this 24 th December 1999.
BETWEEN (1) SHRI. NAGRAJ S. SETTY, residing at
A/302 Powai Vihar, Near Hiranandani Garden, Powai,
Mumbai – 400 076, Indian Hindu Inhabitant of
Mumbai hereinafter called the party of the First Part
(Which expression shall mean and includes his heirs,
executors, administrators and assign) And (2) SHRI.
BALKRISHNA S. SETTY residing at A/302, Powai

App. 23
Vihar, Near Hiranandani Garden, Powai, Mumbai –
400 076, Indian Hindu Inhabitant of Mumbai
hereinafter called the party of the Second Part (Which
expression shall mean and includes his heirs, executors,
administrators and assign)
WHEREAS Party of the First part and Second part
along with late Shri. K.N.S. Setty have been carrying on
business in Partnership under the name & style of M/S.
Shriniwas Sugandhalaya at E-107, Ansa Industrial
Estate, Saki Vihar Road, Sakinaka, Mumbai – 400 072,
dealing in Dhoops and all kinds of Agarbatti governed
by the deed of partnership dt. 22nd Nov. 1985 and
subsiquent amended deed of partnership dt. 2nd April
1992. Where as Shri. K.N.S. Setty retired from the
partnership due to his death on 9th November 1999 and
his share of profit, salary and interest in his Capital till
9th Nov. 1999 has been credited to his Capital A/c and
account have been settled. WHEREAS party of the First
and Second part have decided to continue the said
Partnership firm as going concern on certain terms and
conditions mentioned herein below.
NOW THEREFORE THIS INDENTURE OF
PARTNERSHIP WITNESSETH AS UNDER : –
1.

NAME : The name of the Partnership firm is and
shall be M/s. Shriniwas Sugandhalya or any
other name or names as may be mutually
decided by the partners from time to time.

2.

BUSINESS : The business of the partnerships is
and shall be that of Manufacture of quality
Agarbaties & Dhoops and such other business or

App. 24
businesses as may be mutually agreed upon by
the partners from time to time.
3.

PLACE : The partnership business is and shall
be carried on at E-107, Ansa Industrial Estate,
Saki Vihar Road, Sakinaka, Mumbai – 400 072,
and/or at any other place or places as may be
mutually agreed upon from time to time.

4.

EFFECT : The new partnership terms and
conditions shall be deemed to have effect on and
from 10th November 1999.

5.

DURATION : The duration of the partnership is
“AT WILL”.

6.

CAPITAL : The Capital of the partnership firm
shall be contributed by both the partners, as they
may mutually decide from time to time and it is
agreed by and between the parties hereto the
simple interest at the rate of 18% per annum or
at such other rate as may be prescribed u/s 40(b)
of the Income-tax Act, shall be payable by the
firm on the amount standing to the credit of
capital, current, loan account of the partners.

7.

CONDUCT OF BUSINESS : The party of the
First and Second part, have agreed that both the
partners shall be working partners and shall
devote their time for handling the business of the
firm. Further the manag erial and
administration decision shall be taken by both
partners for the partnership business.

App. 25
8.

REMUNERATION : It is agreed by and between
the parties hereto that the total remuneration
payable to the working partners shall be worked
out as under : –

In case of loss or book
profit upto Rs. 75,000/for the year

Rs. 50,000/- or 90% of
the book profit
whichever is higher.

On the amount of book
profit exceeding Rs.
75,000/- but not
exceeding Rs. 1,50,000/for the year.

60% of the excess over
Rs. 75,000/-

On the book profit
exceeding Rs. 1,50,000/for the year.

40% of the excess over
Rs. 1,50,000/-

Explanation : For the purposes of this clause the
expression “Book Profit” shall mean the “Book Profits as
defined in u/s 40(b) of I.T. Act, 1961 or any statutory
modification or re-enactment thereof, for the time being
in force”.
Such total remuneration shall be paid to the working
partners in the following ratio, that is to say,
1. SHRI. NAGRAJ S. SETTY

50%

2. SHRI. BALKRISHNA S. SETTY

50%
----

Total

100%
-------

App. 26
The remuneration payable to the working partners as
above shall be credited to their respective accounts on
ascertainment of book profits.
Each working partners shall be entitled to draw against
the remuneration payable to him and if his total
withdrawals during the year exceed the amount of
remuneration found payable to him such excess shall be
refunded by him to the firm.
9.

SHARES : That the net profits and losses of the
firm after deducting the interest and
remuneration to the partners and capital profits
and losses shall be divided between the partners
in the following rations :–

1. SHRI. NAGRAJ S. SETTY

50%

2. SHRI. BALKRISHNA S. SETTY

50%
----

Total

100%
-------

10.

ACCOUNTING PERIOD : Accounting period of
the partnership business shall be financial year
i.e. from April to March every year.

11.

BANK ACCOUNT : Bankers of the firm shall be
as the partners may mutually agree upon from
time to time and the same shall be operated by
signature of any one of the partners.

App. 27
12.

AUTHORITY : Every partner is authorised to
sign any document in connection with the
partnership in ordinary course of business and
all those documents signed by any partner shall
be binding on all the partners.

13.

ACT FORBIDDEN : No partner shall without
the consent of the other partners :–
a. Create any charge or lien on the property of
the firm.
b. Mortgage of assign his share or interest in the
firm.
c. Except in ordinary course of business give any
security or promise for payment of money on
account of the firm.
d. Secure surety or gaurantee for any person or
knowingly suffer anything whereby the
property of the partnership may be
endangered.

14.

ARBITRATION : All disputes of any type
whatsoever in respect of the partnership arising
between the partners either during the
continuance of this partnership or after the
determination thereof shall be decided by
arbitration as per the provision of the Indian
Arbitration Act, 1940 or any statutory
modification thereof for the time being in force.

IN WITNESS WHEREOF the parties hereto have
hereunto set their respective hands and seals the day
and the year first hereinabove written.

App. 28
SIGNED SEALED AND DELIVERED
by the withinnamed party of the
First Part SHRI. NAGRAJ S. SETTY
in the presence of /s/ [illegible]
SIGNED AND SEALED DELIVERED
by the withinnamed party of the
Second Part SHRI. BALKRISHNA S. SETTY
in presence of /s/ [illegible]

